ACCOMPANING CERTIFICATE STATING

This accompaning certificate staes that these grounds are
limited to intervening circumstances of substantial or controlling
effect or to other substantial grounds not previously presented;
(issues unoppossed by government,united states v ross[no. 18-11679]
(11th cir. 6-24-2020]-- In united states v. sparks. And 6th + 14th
ammendment.

Also , Ross 2020 WL 344518 at *1.

This petition ispresented in good faith and not for, delay.

. D al
Corrected and resubmitted on 7-12- 21. aE on ie >) oh

55(VS-039
